   September 30, 2005




Financial Management

Report on the Review of the
Development of the DoD Baseline for
Military Equipment
(D-2005-112)




                   Department of Defense
                  Office of Inspector General

                                    Constitution of
                                   the United States

      A Regular Statement of Account of the Receipts and Expenditures of all public
      Money shall be published from time to time.
                                                              Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
FMR                   Financial Management Regulation
PMO                   Program Management Office
SFFAS                 Statement of Federal Financial Accounting Standards
                           INSPECTOR GENERAL
                          DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                     September 30,2005

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY AND LOGISTICS/ACQUISITION
                 RESOURCES AND ANALYSIS
               UNDER SECRETARY OF DEFENSE
                 (COMPTROLLERICHIEF FINANCIAL OFFICER)
SUBJECT: Report on the Review of the Development of the DoD Baseline for Military
         Equipment (Report No. D-2005-112)

         We are providing this report for your information and use. The Director of
Acquisition Resources and Analysis in the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics provided comments. We considered
management comments on the draft report when preparing the final report. The complete
text of the comments is in the Management Comments section of this report.
        We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Barbara A. Sauls at (703) 325-5782 (DSN 221-5782) or Mrs. Alice F. Carey at
(703) 325-6839 (DSN 221-6839). The team members are listed inside the back cover.
For the report distribution, see Appendix D.
                              By direction of the Deputy Inspector General for Auditing:


                                          Y Z i i II
                                        Paul J. Granetto, CPA
                                                                  fld
                                      Assistant inspector General
                                      Defense Financial Auditing
                                                 Service
                    Department of Defense Office of Inspector General
Report No. D-2005-112                                                               September 30, 2005
      (Project No. D2005-D000FH-0033.000)

      Review of the Development of the DoD Baseline for Military Equipment


                                         Executive Summary

Who Should Read This Report and Why? This report is intended for use by officials
in the Property and Equipment Policy Office (Policy Office) in the Office of the Under
Secretary of Defense for Acquisition, Technology, and Logistics. The report discusses
the results of the agreed-upon procedures Office of Inspector General auditors performed.

Background. The DoD must comply with government accounting standards, including
Statement of Federal Financial Accounting Standard No. 23, “Eliminating the Category
of National Defense Property, Plant, and Equipment,” May 2003, which requires DoD to
include the cost of its military equipment on the DoD Balance Sheet. To comply with the
new standard, the Office of Secretary of Defense is developing and implementing a
Business Enterprise Architecture conceptual model∗ that describes the business processes
and system requirements DoD believes are needed to accurately value, depreciate, and
financially report military equipment. The first phase of the conceptual model, the
baseline valuation, is primarily a manual effort to determine the historical cost for
military equipment acquired as of September 30, 2006.

This is the first of two reports about the methodology the Policy Office is developing to
determine the value of all military equipment. This report discusses the agreed-upon
procedures, the auditor actions, and the results of those actions. The second one will
discuss significant auditor findings, conclusions, and recommendations.

Results. The Policy Office requested that we perform procedures to review the
methodology developed to accurately identify and value all military equipment. The
Policy Office intended the process to identify and value military equipment to satisfy
financial statement requirements that changed how military equipment is reported. We
coordinated with the Policy Office and jointly developed agreed-upon procedures to
review the methodology. The procedures reviewed four primary areas: the military
equipment universe, program valuation, program valuation waivers, and DoD decision
makers’ information needs.

To evaluate the completeness of the military equipment universe, we executed a very
limited test, which showed that known programs were included in the universe. The
Policy Office expanded the universe after they provided the initial data to the Office of
Inspector General. Although our review did not identify any excluded programs, we
determined that the Policy Office had not developed a process to validate the
completeness of the military equipment universe.
∗
    The Business Enterprise Architecture conceptual model describes business processes that will be required
    to support the new accounting treatment for military equipment, system interfaces that may be required to
    support the new accounting treatment for military equipment, and system requirements to support the
    new accounting treatment for the military equipment and business processes.
Our review of 48 programs and subprograms showed that the Policy Office had
completed valuations for 19 programs or subprograms and waived 29 programs or
subprograms. All 19 programs or subprograms with completed valuations had
deficiencies. We reviewed the waiver process for the remaining 29 programs and
determined that 12 of those programs or subprograms lacked sufficient documentation to
support their waiver status.

To determine if the baseline methodology satisfied the needs of DoD decision makers,
we distributed questionnaires among 42 program office points of contact. The 19 timely
questionnaire responses indicated that the baseline information did not adequately
address program office information needs.

Management Comments. Although not required to comment, the Director, Acquisition
Resources and Analysis disagreed with the audit determinations that:

   •   the Policy Office approach did not include a process to validate that the universe
       contained all military equipment;

   •   the valuation team was incorrect in its treatment of some program end items, but
       believed that it warranted study; and

   •   the questionnaire responses did not adequately address program office
       information needs and would be used primarily for financial reporting purposes.

Auditor Response. We believe that the process of reviewing the universe list with
program managers and using information from military equipment accountability and
maintenance databases should be considered part of the process to identify programs, not
a process to validate the completeness of the universe. We agreed with the Director’s
assessment that performing additional analysis on this program and similar programs is
reasonable and would be beneficial. Further, we believe that the personnel at the
program offices were the only DoD decision makers that had any significant exposure to
the results of the military equipment valuation and distributing the survey to other
decision makers would not have been logical or beneficial. See the Overview section of
the report for a discussion of the management comments and the Management Comments
section of the report for the complete text of the comments.
Management Actions. During the engagement, we developed and submitted to the
Policy Office three issue papers discussing the lack of source documentation, concerns
with the update methodology, and deficiencies found in one of the methods used to
account for modifications. Additionally, we discussed the issue involving the lack of
program manager attestations with the Policy Office. In response, the Policy Office
began implementing corrective actions to resolve the issues. Specifically, the Policy
Office began holding meetings with Defense Finance and Accounting Service field
offices to determine the availability of historical cost documentation. Additionally, the
Policy Office revised the baseline update methodology and prepared a draft position
paper that described a revised methodology to value modifications. The Policy Office
also incorporated an assertion requirement into the valuation process.




                                             ii
Table of Contents
Executive Summary                                                             i

Independent Auditor’s Report
     Overview                                                                1
     Agreed-Upon Procedures, Auditor Actions, and Results                    9


Appendixes
     A.   Scope and Methodology                                              12
     B.   Prior Coverage                                                     13
     C.   Questionnaire Responses                                            14
     D.   Report Distribution                                                15

Management Comments
     Office of the Under Secretary of Defense for Acquisition, Technology,
        and Logistics                                                        17
                   Independent Auditor’s Report
                                  Overview
In response to the President’s Management Agenda, the Under Secretary of
Defense (Comptroller) established a DoD goal of achieving a clean audit opinion.
To meet this objective, DoD must comply with government accounting standards,
including Statement of Federal Financial Accounting Standards (SFFAS) No. 23,
“Eliminating the Category National Defense Property, Plant, and Equipment,”
May 2003, which requires DoD to include the cost of its military equipment on
the DoD Balance Sheet. To comply with the new standard and move toward
obtaining a clean audit opinion, the Office of Secretary of Defense is developing
and implementing a Business Enterprise Architecture conceptual model that
describes the business processes and system requirements DoD believes it needs
to accurately value and depreciate military equipment and report it on financial
statements. The first phase of the conceptual model, the baseline valuation, was
primarily a manual effort to determine the historical cost for military equipment
acquired as of September 30, 2006.

The Property and Equipment Policy Office (Policy Office) in the Office of the
Under Secretary of Defense for Acquisition, Technology, and Logistics requested
that we perform procedures to review the methodology developed to accurately
identify and determine the value of all military equipment. We performed
procedures agreed upon by officials in the Policy Office and the Office of the
Inspector General. The sufficiency of these procedures is solely the responsibility
of the Policy Office officials. Therefore, we make no representation regarding the
sufficiency of the procedures. We used the procedures to review the methodology
that the Policy Office used to develop a baseline approach for valuing military
equipment as of September 30, 2006. Specifically, we applied the procedures to
the military equipment universe, program valuation, program valuation waivers,
and DoD decision makers’ information needs. If we had performed additional
procedures, other reportable matters might have come to our attention. However,
we were not engaged to and did not perform an audit with the objective of
expressing an opinion on the methodology, on the accuracy of the data collected
using the methodology, or both. Therefore, we are not expressing an opinion.
We implemented the agreed-upon procedures in accordance with generally
accepted government auditing standards and standards established by the
American Institute of Certified Public Accountants as of April 15, 2005.

This is the first of two reports on the methodology developed by the Policy Office
to value all military equipment. This report discusses the agreed-upon
procedures, auditor actions, and results. The second one will discuss significant
auditor findings, conclusions, and recommendations. We developed and
submitted three issue papers addressing the lack of source documentation for
recently acquired military equipment, concerns with the update methodology, and
deficiencies found in one of the methods used to account for modifications. In
response, the Policy Office stated it was working towards resolving the issues.
Specifically, the Policy Office began holding meetings with Defense Finance and
Accounting Service field offices to determine the availability of historical cost
documentation. The Policy Office also revised the baseline update methodology



                                    1
           and provided us a new position paper describing a revised methodology to value
           modifications.

           Military Equipment Universe. The Policy Office intended the process to
           identify and value military equipment to satisfy financial statement requirements
           that changed reporting of military equipment from “National Defense Property,
           Plant, and Equipment” to “General Property, Plant, and Equipment.” The Policy
           Office hired KPMG, an accounting firm, to help develop the baseline valuation
           methodology for valuing military equipment. KPMG stated that they collected
           military equipment program data and Military Services’ points of contact
           information, reviewed relevant data sources, and established a preliminary
           military equipment program universe list, as of June 2003. The sources included
           the following.

                    •    363 Reports1

                    •    Procurement Programs (P-1) 2
                    •    Selected Acquisition Reports 3

                    •    Government Accountability Office Defense Acquisition Assessments
                         of Major Weapon Programs 4

           Using this approach, along with validating and reviewing the universe list with
           program executive officers, program managers, and Component points of contact,
           the Policy Office believed it captured all significant military equipment programs
           and modifications to those programs. However, the approach did not include a
           process to validate that the universe contained all military equipment. The effort
           to identify all visible and known military equipment programs was ongoing and,
           according to the Policy Office, the universe had grown to 1,108 programs as of
           September 15, 2005.

           To evaluate the completeness of the universe, we asked program executive
           officers, program managers, and Component points of contact to identify
           additional, less recognizable programs that were not included. In our limited test,
           we submitted a questionnaire to 42 program office points of contact and asked
           whether they managed any military equipment programs excluded from the
           military equipment valuation universe (see Appendix C, question 10). We
           received 19 timely responses; however, only 18 provided responsive answers to
           this question. Fourteen of the 18 replied that they did not manage any military
           programs other than those on the list. Only four responders identified military

1
    According to the Policy Office, the 363 Report is a compilation of individual Military Service reports
    reflecting the inventory of major end items of military equipment.
2
    According to the Policy Office, the Procurement Programs (P-1) is derived from and consistent with the
    Comptroller Information System database. The P-1 line items represent funding for active procurement
    programs per budget year.
3
    According to the Policy Office, Selected Acquisition Reports summarize the latest estimates of cost,
    schedule, quantities, and technical status for major defense acquisition programs.
4
    According to the Policy Office, the Government Accountability Office Defense Acquisitions Assessment
    of Major Weapons Programs report provides an assessment of DoD programs and identifies potential
    risks.



                                                       2
programs as not included in the universe. Further review showed that those
programs were actually included in the universe. Consequently, our test did not
identify any excluded programs.

Program Valuations. On August 27, 2004, KPMG provided a list of
858 programs, which included 326 completed reviews, 149 in-process reviews,
and 383 scheduled reviews. We judgmentally selected a sample of 22 programs
from completed evaluations and from additional programs identified during our
September 2004 site visit. Eight of the programs included subprograms;
therefore, we increased our sample by adding 26 subprograms for a total sample
size of 48 programs and subprograms.

The Policy Office had determined values for 19 of the 48 programs and
subprograms. We identified issues in all 19 valuations. Some of our areas of
concern include:

       •   historical cost documentation

           -   acquisition and disposal dates

           -   costs and expenditures

       •   accounting for modification costs

       •   judgments made by the valuation team

       •   baseline target date

       •   documentation of program manager agreement with the valuations

        Historical Cost Documentation. The valuation methodology did not use
historical cost documentation when it was available. The methodology calculated
the program valuations based on data obtained from various financial, acquisition,
and logistics systems. Although that methodology would have been proper if
obtaining initial historical costs was not practical, it was improper (according to
SFFAS No. 23) when historical cost documentation should have been available.
As defined by DoD Regulation 7000.14-R, “DoD Financial Management
Regulation (FMR),” volume 4, chapter 6, “Property, Plant, and Equipment,”
August 2000, supporting documentation includes:

       •   purchase invoices,

       •   sales and procurement contracts,

       •   DD Form 1354 “Transfer and Acceptance of Military Real Property,”

       •   ENG Form 3013 “Work Order/Completion Report,”
       •   construction contracts, and

       •   work orders generated independently of the entity in possession of the
           property.


                                    3
The Federal Acquisition Regulation, National Archives and Records
Administration, and DoD FMR require that historical cost data be available for
military equipment contracts for 6 years and 3 months after final payment.
SFFAS No. 23 was effective for accounting periods beginning after
September 30, 2002, which was within the required retention period of 6 years
and 3 months. Therefore, military equipment acquired after the effective date of
SFFAS No. 23 required that programs retain historical cost supporting
documentation.

                Acquisition and Disposal Dates. Historical records should have
been used to establish equipment acquisition dates for 10 of the 19 sample
programs and subprograms that received valuations because equipment was
acquired within the FY 2003 and FY 2004 accounting periods. However, all
10 of those programs and subprograms used acquisition dates obtained from
financial, acquisition, and logistics systems without reconciliation with required
historical documentation, such as invoices or work order completion reports.
Similarly, historical records should have been used to establish equipment
disposal dates for 2 of the 19 sample programs and subprograms because
equipment was disposed of within the FY 2003 and FY 2004 accounting periods.
For those two subprograms, the Policy Office did not have sufficient source
documentation to support the date of disposal.

                Costs and Expenditures. Historical records should have been
used to establish program costs and expenditures for 16 of the 19 sample
programs and subprograms because they occurred during the FY 2003 and
FY 2004 accounting periods. However, for those 16 programs and subprograms,
the Policy Office did not provide supporting documentation.

        Accounting for Modifications. The methodology used to capitalize and
depreciate modification costs in 4 of the 19 sample programs and subprograms
did not comply with SFFAS No. 6, “Accounting for Property, Plant, and
Equipment,” June 1996, as amended; the DoD FMR; and the Policy Office’s
proposed business rules on modifications, modernizations, and upgrades. Instead,
the valuations added the modification costs to the program’s original acquisition
costs in order to average the modification costs across all of the program’s end
items. As a result, the valuations assumed that all of the program’s end items had
been modified when a number of end items had not been modified. Further, the
valuations capitalized and depreciated the modification beginning with the period
the Program Management Offices (PMOs) placed the first end item in service,
which may not be the period in which the expenditure for the modification
occurred. Therefore, the methodology the Policy Office used for the three
program valuations was not in compliance with Generally Accepted Accounting
Principles. As a result, the estimated net book value may be misstated.

        During the engagement, we informed the Policy Office of the issue we
found with the method used to account for some modifications. In response, the
Policy Office provided a draft position paper that described a revised
methodology to value modifications. The Office of Inspector General has
reviewed the revised policy and has provided comments. If the Policy Office
accounts for modifications using the methodology discussed in its revised policy,
it should adequately resolve the issues. We will revisit this issue when the
Department has implemented the revised policy.



                                     4
                   Valuation Team Judgments. According to an analysis performed by
           Government Accountability Office auditors, the valuation team selected the
           ground control stations as the primary end item for the Predator Unmanned Aerial
           Vehicle Program and allocated total system development cost and expenditure
           data on the basis of the number and expected life of the control systems. In fact,
           the program procured end items for aircraft and control stations with such various
           useful lives, cost, count, and susceptibility to disposal to presumably warrant
           treatment as independent subprograms. A more reasonable approach would be to
           allocate the costs between different parts or subprograms of the program.
           Because the valuation team had selected the control stations as the primary end
           item, the program valuations would not recognize aircraft loss, which is both
           more likely and more costly. The valuation team for the Tactical Automated
           Security System Program inappropriately calculated a portion of program values
           using an average unit cost obtained from a sample of contracts. Because the
           program incurred costs during a time when SFFAS No. 23 required the use of
           historical costs, calculated averages derived from a sample of contracts was
           unacceptable.

                   Baseline Update. The completed preliminary valuations and those
           program valuations that remained to be completed will require additional
           updating as of September 30, 2006. Additional work will be required to update
           the valuations because DoD does not have financial and accountability systems
           that would provide accurate and timely information. To overcome these
           challenges, the Policy Office proposed an update solution that would require
           program information from organizations beyond its direct control. Specifically,
           substantial assistance will be required from the Defense Finance and Accounting
           Service, the PMOs, the Military Department Financial Management Components,
           and the Naval Space and Warfare Systems Center. Although the proposed update
           solution might be logical if DoD had more time, the aggressive baseline date may
           not allow adequate time for the update methodology’s development and
           implementation.

                    Program Manager Attestations. The program managers were not
           required to indicate written concurrence or non-concurrence with program
           valuations. Because we considered program managers as the best source to
           accurately evaluate military equipment costs, we suggested that program
           managers sign attestations of concurrence with their programs’ military
           equipment valuation calculations. The Policy Office agreed with our
           recommendation and, as a result, agreed to request that program managers sign
           attestations beginning in FY 2005. However, the attestation template that KPMG
           provided in November 2004 did not address whether the program manager
           concurred with the program valuation. Therefore, program managers are still not
           required to attest5 to concurrence or non-concurrence with program valuations.
           Program Valuation Waivers. The program managers signed program waivers
           for 29 of the 48 programs and subprograms from our judgmentally selected
           sample. For 12 of the 29 program waivers that KPMG and the Policy Office
           accepted, the waivers lacked adequate documentation to support their waiver
           status.


5
    Attest means to affirm to be true or to authenticate by signing as a witness.


                                                        5
           Program Office Information Needs. According to the Federal Accounting
           Standards Advisory Board, DoD decision makers need program information
           regarding budgetary integrity, operating performance, stewardship, and systems
           and control. In order to determine whether the baseline adequately addressed
           these needs, we distributed 42 questionnaires to a judgmentally selected sample of
           32 PMO points of contact and, additionally, asked that 10 of those PMOs forward
           our questionnaire to their respective Program Executive Offices. We received
           and reviewed 19 timely questionnaire responses.

                  Information Needs Not Met. The questionnaire responses indicated that
           the baseline did not adequately address program office information needs and
           would be used primarily for financial reporting purposes. Generally, the
           responders indicated the following.

                    •   Program valuations did not provide access to new or improved
                        information.

                    •   Program valuations, based on program averages over the entire life of
                        the program, did not provide information at a useful level.

                    •   Depreciation was not useful in making managerial decisions.

                    •   More accurate and consistent accounting and accountability systems
                        would be more useful.

           Only 16 of the 19 questionnaire responders provided responsive answers to the
           question that addressed the usefulness of a validation of the estimated useful life.
           Eight of the 16 responders indicated that a validation of the estimated useful life
           of military equipment would be useful6 (see Appendix C, question 9).
           Additionally, when asked whether they agreed with the Policy Office’s calculated
           program valuations (see Appendix C, question 2), two responders provided
           additional comments that indicated that program valuations could be more useful.
           One of those responders indicated that the information might be more accurate if
           they considered program costs such as development, modification, operation, and
           support costs. However, the responders did not indicate that the program
           valuations were not in compliance with any DoD policy or accounting standards
           by omitting these program costs

                  Information Needs Met. At least two responders did indicate that
           program valuations met some information needs. One responder stated that
           program valuations may be useful to decision makers in the Office of the
           Secretary of Defense or Congress who are further removed from programs.
           Another responder indicated that the program valuation provided a new
           depreciation valuation.

                    Management Comments and Auditor Response
           Management Comments. Although not required to, the Director of Acquisition
           Resources and Analysis commented, stating that the growth of the military

6
    The number of questionnaire responders differs from the number of responses per specific question
    because some responders did not respond to every question.



                                                      6
equipment universe is evidence that the Policy Office has a process to validate the
completeness of the universe. The Director stated that before the baseline
valuation effort, the Department did not have a single source for identifying
military equipment programs. The Director stated that her office believes its
process of data accumulation and review included sufficient data sources and
procedures for ensuring the completeness of the military equipment universe.

Auditor Response. The growing number of programs in the universe does
provide evidence that the process to identify programs has been ongoing.
However, it does not provide evidence that the Policy Office has a process to
validate the completeness of the universe. Reviewing the universe list with
program managers and using information from military equipment accountability
and maintenance databases should be considered part of the process to identify
programs; however, we do not believe it is an effective process to validate the
completeness of the universe. A process to validate the completeness of the
universe might include selecting a sample of military equipment used in the field
and tracing it to the accountability systems or the universe.

Using its current process, the Policy Office had identified 858 programs as of
August 27, 2004, 1074 programs as of February 28, 2005, 1090 programs as of
May 16, 2005, and the number of programs in the military equipment universe
continues to grow, as would be expected when developing the universe.
However, this process, which originally did not identify hundreds of programs,
cannot be considered adequate for validating the completeness of the universe.
The Policy Office should not assume that because a process appears adequate for
developing a universe, it is also adequate for validating that the universe
developed is complete. The process to validate the completeness of the universe
should ensure that all military equipment units were included in the balance sheet.

Management Comments. The Director stated that her office does not believe
that the valuation team was incorrect in treating the Predator Unmanned Aerial
Vehicle Program end item as a total system. The Director stated that her office
believes that the valuation of this and similar programs warrants study, given the
subject’s complexity and applicability to more than a single military equipment
program. The Director stated that her office will research the subject and
recommend an approach for identifying and accounting for such programs.

The Director also stated that her office believes that the Office of Inspector
General survey missed the point of the military equipment valuation effort. The
Director stated that because the Policy Office used data that the Project Managers
provided to establish the military equipment baseline, it was understandable that
the program managers would see no value added. The Director stated that the
military equipment valuation project was oriented toward decision makers at
higher echelons. She said that the project provides standard, consistent data on
programs that can be used for decision making, but no senior leaders were
surveyed for the report. The Director stated that she expects the value of the
military equipment effort to increase as it moves from the program level to the
asset level.
Auditor Response. We disagree with the Director’s comment that the survey
missed the point of the military equipment valuation effort because it was
distributed to program office personnel but not senior leaders. The personnel at
the program offices were the main DoD decision makers that had any significant

                                    7
exposure to the results of the military equipment valuation. Therefore,
distributing the survey to other decision makers would not have been logical or
beneficial. Further, in the report we noted that program valuations might be
useful to senior leaders in the Office of the Secretary of Defense or Congress who
are further removed from programs.

The Director stated that it was understandable that program managers would see
no value added because they already possess the information. However, the
Director stated in an earlier response that before the baseline valuation effort, the
Department did not have a single source for identifying military equipment
programs. The baseline valuation effort presents the Policy Office an opportunity
to provide the program managers, who make the day-to-day decisions for the
programs, with a single source of information that would be useful and readily
accessible.




                                      8
            Agreed-Upon Procedures, Auditor Actions, and Results

We performed the baseline valuation methodology procedures agreed upon by the Policy
Office and the Office of Inspector General. This section contains the agreed-upon
procedures, the auditor actions, and the results of accomplishing those procedures as of
April 15, 2005.

Procedure. Evaluate the process used by the Policy Office to identify the universe of
military equipment.

Auditor Action. We reviewed the methodology that the Policy Office implemented to
ensure the completeness of the military equipment universe. We held discussions with
key personnel from the Policy Office. We obtained a written description from the Policy
Office about the approach used in the universe development. We obtained a list of
sources that the Policy Office used to develop the initial military equipment program
universe. Additionally, we obtained the list of programs included in the military
equipment universe as of August 27, 2004.

We reviewed the Universe Construction Source Reference Descriptions7 provided by
KPMG. We identified the significant sources of supporting documentation for the
sample programs. We examined the sources that are common to all the Military
Departments and those sources that are unique to each Department. We evaluated the
logic of the process used by KPMG to ensure that all military equipment programs were
valued and then we evaluated the reasonableness and reliability of the sources.

Because the Policy Office was still developing the program universe, we could not
perform a full completeness test. However, we performed a limited completeness test
within our judgmental sample. We requested that the program managers identify any
military programs that were excluded (omitted but not as part of a waiver) from the
Policy Office’s military equipment valuation effort. We reviewed those programs
identified as omitted from the universe and determined that all were actually included in
the universe.

Results. Program Managers did not identify any programs excluded from the universe
and our limited testing of the program universe did not identify missing programs.
However, we noted that the Policy Office methodology did not include a process to
validate the completeness of the military equipment universe.

Procedure. Review the baseline valuation methodology developed by the Policy Office
to report military equipment values.

Auditor Action. We obtained introductory briefing charts on the baseline valuation
methodology developed by the Policy Office to report military equipment values. We
also obtained the baseline business rules.




7
    The KPMG descriptions were a compiled list of primary sources used to develop the initial military
     equipment program listing.


                                                      9
We analyzed the standard valuation model developed by the Policy Office and KPMG
and questioned the methodology for capitalizing and depreciating modification costs.
We met with the Policy Office and discussed possible methods of addressing
modification costs.

We reviewed the proposed baseline valuation update methodology for reasonableness.
We identified issues with the update methodology.

We accompanied the Policy Office and KPMG on five site visits to observe the military
equipment valuation process. We prepared a draft overview of the process and submitted
the overview to the Policy Office for comment.

We reviewed the Office of the Secretary of Defense, Policy Office briefing charts and
business rules.

Results. Based on our reviews and observations, we developed and submitted three issue
papers addressing the lack of source documentation, concerns with the update
methodology, and deficiencies in the baseline approach. In response, the Policy Office
stated they were working towards resolving the issues. Specifically, the Policy Office
began holding meetings with Defense Finance and Accounting Service field offices to
determine the availability of historical cost documentation. The Policy Office also
revised the baseline update methodology and provided a new position paper describing a
revised methodology to value modifications.

Procedure. Review and determine the reasonableness of the military equipment
valuations that the Policy Office had completed.

Auditor Action. We reviewed the standard valuation model to determine how the Policy
Office had calculated the valuations. Then we judgmentally selected a sample of
22 programs from 326 programs with reviews completed by the Policy Office and also
from programs identified during our September 2004 site visit. We noted that the
sampled programs also contained subprograms. Therefore, we modified our judgmental
sample by selecting 26 additional subprograms within our primary sample. As a result,
our sample included 48 military equipment programs and subprograms. We reviewed
supporting documentation for the appropriation and expenditure data, asset quantity data,
and useful life. We identified that the Policy Office had completed program valuations
for 19 of the 48 programs and subprograms.

Results. We identified problems with all 19 program valuations. Those problems
included unsupported acquisition and disposal dates, unsupported program costs and
expenditures, incorrect accounting for modification costs, and unacceptable judgments
made by the valuation team.

Procedure. Review the waiver criteria the Policy Office used to exclude projects from
the valuation process to determine the reasonableness of the exclusion.

Auditor Action. We held discussions with key personnel from the Policy Office and its
contractor, KPMG. We also attended program review debriefings conducted by KPMG
with some PMOs. We obtained copies of the waiver criteria. We identified 11 types of
waivers and summarized pertinent criteria for issuing a waiver valuation exemption.




                                           10
Results. In our judgmental sample, 29 of the 48 programs and subprograms received
waivers; however, 12 of the 29 programs and subprograms did not have sufficient data to
support a waiver.

Procedure. Determine whether the baseline that the Policy Office was developing for
military equipment adequately addressed DoD decision makers’ needs.

Auditor Action. We reviewed Federal Accounting Standards Advisory Board guidance8
about the objectives of Federal financial reporting. Using this guidance as a basis, we
listed the DoD primary decision makers as program managers and executives and we
identified their major information needs as budgetary integrity, operating performance,
stewardship, and systems and control. We performed a limited needs test within our
judgmental sample. We distributed a questionnaire to 42 program office points-of-
contact addressing whether the baseline met their information needs. We reviewed
19 timely responses and summarized the replies.

Results. The responses indicated that the information offers limited usefulness for
program office decision making and would be primarily useful on financial reporting.




8
    “Objectives of Federal Financial Reporting Statement of Federal Financial Accounting Concepts
    Number 1,” September 2, 1993. The guidance classifies users of financial information about the Federal
    Government in four major groups: citizens, Congress, executives, and program managers. Their needs
    are categorized in four broad categories: budgetary integrity, operating performance, stewardship, and
    systems and control.


                                                     11
Appendix A. Scope and Methodology
           The Policy Office requested that DoD Office of Inspector General auditors
           perform procedures to review the methodology developed by the Policy Office to
           accurately identify and value all military equipment. The Policy Office wanted
           DoD Office of Inspector General involvement during the development and
           implementation process to identify potential auditable issues. The Policy Office
           believed that identifying those issues earlier in the military equipment valuation
           process would provide an opportunity to confront and correct them before DoD
           submits an assertion package9. Officials in the Policy Office and Office of
           Inspector General discussed and agreed upon procedures for the engagement.
           Specifically, the agreed-upon procedures included evaluating whether the
           valuations of military equipment and the waiver criteria used to exclude programs
           from the valuation process were reasonable . The agreed-upon procedures
           included evaluating whether the military equipment universe was complete and
           reviewing whether the baseline adequately addressed DoD decision makers’
           information needs. The Office of the Inspector General with the assistance of the
           Government Accountability Office performed these agreed-upon procedures in
           accordance with generally accepted government auditing standards and standards
           established by the American Institute of Certified Public Accountants as of
           April 15, 2005.

           Scope Limitations. We performed this review from October 2004 through
           March 2005 in accordance with generally accepted government auditing
           standards. The agreement limited our scope to agreed-upon procedures that did
           not include tests of management controls. Therefore, we limited our scope and
           judgmentally selected and reviewed 48 programs and subprograms to evaluate the
           effectiveness of the proposed methodology to value military equipment. During
           the program and methodology reviews we identified process deficiencies and
           provided three issue papers to the Policy Office.

           Use of Computer-Processed Data. We relied on computer-processed data
           provided directly from the Policy Office and KPMG that was extracted from
           numerous DoD financial, acquisition, and logistics systems to evaluate sample
           program valuations and waivers. Specifically, we used the computer-processed
           data to review program valuation calculations, examine supporting documentation
           adequacy, and analyze waiver appropriateness. We did not determine the
           reliability of the computer-processed data. Not evaluating the controls did not
           affect the results of the applications of the agreed-upon procedures.

           Government Accountability Office High-Risk Area. The Government
           Accountability Office has identified several high-risk areas in DoD. This report
           provides coverage of the Defense Financial Management high-risk area.




9
    An assertion package is prepared by DoD management to notify the DoD OIG that a financial statement
    or line item is ready for audit.



                                                    12
Appendix B. Prior Coverage
    During the last 5 years, the Government Accountability Office, the DoD Inspector
    General and the U.S. Army Audit Agency have issued 8 reports discussing
    military equipment. Unrestricted GAO reports can be accessed over the Internet
    at http://www.gao.gov. Unrestricted DoD OIG reports can be accessed at
    http://www.dodig.mil/audit/reports.


GAO
    Report No. GAO 04-910R, “Financial Management: Further Actions Are Needed
    to Establish Framework to Guide Audit Opinion and Business Management
    Improvement Efforts at DoD,” September 20, 2004

    Report No. GAO 04-615, “DoD Business Systems Modernization: Billions
    Continue To Be Invested With Inadequate Management Oversight and
    Accountability,” May 2004


DoD IG
    DoD IG Report No. D-2004-092, “Corps of Engineers Equipment Reporting on
    Financial Statements for FY 2003,” June 22, 2004

    DoD IG Report No. D-2003-117, “Systems Inventory to Support the Business
    Enterprise Architecture,” July 10, 2003

    DoD IG Report No. D-2001-011, “Prior Period Adjustment to Remove National
    Defense Property, Plant, and Equipment,” November 16, 2000


Army
    U.S. Army Audit Agency Report No. A-2003-0139 “National Defense Equipment
    Reporting,” February 6, 2003

    U.S. Army Audit Agency Report No. A-2002-0238-FFG “Audit of The Army’s
    FY 01 General Fund Financial Statements-General Equipment,” March 13, 2002

    U.S. Army Audit Agency Report No. AA2001-225, “Audit of the Army’s
    Inventory and Control of Military Equipment,” April 6, 2001




                                       13
Appendix C. Questionnaire Responses
                       Questionnaire Responses of Program Office POCs
                                                         % of            % of
                                                                                                      Unresponsiv
                                                        Actual          Actual                  N
                    Question                                                           Yes             e or N/A
                                                       Responses       Responses                o
                                                                                                        Answer
                                                         Yes1             No1
1. Do you have a clear understanding of the
Office of the Secretary of Defense (OSD)                   71               29          12      5            2
methodology for valuing military equipment?
2. Do you agree with the OSD calculated
                                                           70               30           7      3           92
program valuations?
3. Is the level of valuation information, which
is based on program averages over the entire
                                                           25               75           4     12            3
life of the program, useful to manage or report
on your programs?
4. Do the OSD program valuations provide
you with access to new information to use in               27               73           3      8            8
managing and reporting on your program?
5. Do the OSD program valuations provide
you with access to improved information to
                                                           27               73           3      8            8
use in managing and reporting on your
program?
6. Would precise information without any
estimates on the historical cost of military
                                                           69               31          11      5            3
equipment programs be useful in making
managerial decisions?
7. Would precise information on allocated
military equipment program costs
(depreciation) based on actual, not estimated,             18               82           3     14            2
useful life be helpful in making managerial
decisions?
8. Are there any additional program valuation
requirements that needed to be addressed, but              23               77           3     10            6
were not in OSD program valuations?
9. Do you believe it would be useful for DoD
to validate the program’s estimated useful                 50               50           8      8            3
life?
10. Do you manage any military programs that
were excluded (omitted but not as part of a
                                                           22               78          43     14            1
waiver) from the OSD military equipment
valuation effort?
11. Do you believe that increased accuracy
and consistency in feeder systems (accounting
                                                           65               35          11      6            2
and accountability systems) would be useful
to manage and report on your programs?

1
  Percentages apply to the number of responsive answers per specific question.
2
  Seven of the nine stated they could not respond because they had not been debriefed/given their program valuations.
3
  The programs identified as omitted by the four responders were actually included in the universe.




                                                        14
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Government Accountability Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform




                                          15
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        16
Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics
Comments




                       17
18
19
20
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Barbara A. Sauls
Alice F. Carey
Kenneth A. Weron
Yalonda N. Blizzard
James F. Friel
Lidet K. Negash
Brian R. McNamara
Nathan R. Witter
Calvin O. King
Davita N. Pray
Kari Coates

Government Accountability Office Team Members

James D. Berry Jr.
Kristi Karls
